No. 21-5592

 

IN THE

Supreme Court of the United States

JOHN HENRY RAMIREZ,
Petitioner,
Vv.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.,
Respondents.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

BRIEF AMICUS CURIAE Of THE
BECKET FUND FOR RELIGIOUS LIBERTY
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,773 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 27, 2021.

 

Colin Casey Hoggan
Wilson-Epes Printing Co., Inc.
